LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

February 4, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-832: APPLE INC. V. VIRNETX INC., ET AL.
Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae ACT | THE APP
ASSOCIATION, on February 4, 2020, I caused service to be made pursuant to Rule 29 on
the following counsel for the Petitioner and Respondents:
PETITIONER:
E. Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
212-506-5380
jrosenkranz@orrick.com

RESPONDENTS:
Jeffrey Alan Lamken
MoloLamken LLP
The Watergate, Suite 660
600 New Hampshire Ave., N.W.
Washington, DC 20037
202-556-2010
jlamken@mololamken.com

This service was effected by depositing three copies of the Brief of Amicus Curiae
ACT | THE APP ASSOCIATION in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 4th day of February 2020.

